Appendix

Case: 19-51034

Document: 00515460118

Page: 1

Date Filed: 06/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-51034
Summary Calendar

FILED
June 22, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff−Appellee,
versus
OSCAR URIAS ESPINOZA, JR., also known as Oscar Urias,
also known as Slowpoke, also known as Okie,
also known as Oscar Urias Espinoza, also known as Oscar U. Espinoza,
also known as Oscar Espinoza,
Defendant−Appellant.

Appeal from the United States District Court
for the Western District of Texas
No. 4:18-CR-751-1

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Oscar Espinoza, Jr., appeals his conviction of possession of a firearm by
a convicted felon, maintaining that the statute of conviction, 18 U.S.C.
Pursuant to 5TH CIRCUIT RULE 47.5, the court has determined that this opinion
should not be published and is not precedent except under the limited circumstances set forth
in 5TH CIRCUIT RULE 47.5.4.
*

1a

Case: 19-51034

Document: 00515460118

Page: 2

Date Filed: 06/22/2020

§ 922(g)(1), is unconstitutional because it exceeds Congress’s power under the
Commerce Clause. He concedes that the issue is foreclosed by, inter alia,
United States v. Alcantar, 733 F.3d 143 (5th Cir. 2013), but he wishes to preserve it for further review. The government has filed an unopposed motion for
summary affirmance, agreeing that the issue is foreclosed. Alternately, the
government requests an extension of time to file its brief.
We have “consistently upheld the constitutionality” of § 922(g)(1), which
is “a valid exercise of Congress’s authority under the Commerce Clause.”
Alcantar, 733 F.3d at 145. Espinoza’s arguments are, as he concedes, foreclosed. See id. Because the government’s position “is clearly right as a matter
of law so that there can be no substantial question as to the outcome of the
case,” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969),
the motion for summary affirmance is GRANTED, the alternative motion for
an extension is DENIED, and the judgment is AFFIRMED.

2a

